Office of Inspector General
 for the Millennium Challenge Corporation


May 31, 2011



Mr. Daniel Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, NW
Washington, DC 20005

Dear Mr. Yohannes:

This letter transmits the Office of Inspector General’s final report on the Review of Millennium
Challenge Corporation-Funded Contracts with Government-Owned Enterprises in Ghana
(Review Report No. M-000-11-003-S). In finalizing the report, we considered your written
comments on our draft report and included those comments in their entirety in Appendix II of
this report.

The review report contains three recommendations to assist the two government-owned
enterprises included in this review with adhering to MCC policies and procedures in the areas of
(1) worker health and safety, (2) environmental protection, (3) quality construction, and (4) sound
labor practices when implementing MCC compact projects; and examines whether the
Millennium Development Authority adhered to MCC’s Program Procurement Guidelines when
selecting government-owned enterprises to implement compact projects. We consider that
management decisions have been reached on Recommendations 1, 2, and 3. Final action will
not be reached on the recommendations until MCC provides additional documentation.

I appreciate the cooperation and courtesy extended to my staff during this review.

Sincerely,


      /s/

Alvin A. Brown
Assistant Inspector General
Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street N.W.
Suite 770
Washington, DC 20005
www.usaid.gov/oig
SUMMARY
This review is in response to Congressman Frank R. Wolf’s September 29, 2010,
request to review Chinese government-owned enterprises (GOEs) that receive contracts
for Millennium Challenge Corporation (MCC)-funded programs. Congressman Wolf
requested that the Office of Inspector General (OIG) review the extent to which Chinese
GOEs adhere to health and safety, environmental, quality construction, and labor
policies, and whether the procurement process was open, fair, and competitive.

On September 27, 2010, MCC amended its Program Procurement Guidelines (Interim
Amendment Notice 2010-001) to prohibit GOEs from competing for MCC-funded
contracts. 1 MCC made this amendment to help ensure a level playing field for commercial
firms from all countries. Owing to the challenge of determining whether a company is
actually government-owned, MCC has identified a process to recognize GOEs if they bid for
contracts.

On August 1, 2006, MCC and the Government of Ghana signed a 5-year compact that
totaled approximately $547 million. The compact entered into force on February 16,
2007. The Ghanaian government designated the Millennium Development Authority
(MiDA) as the accountable entity (also called the Millennium Challenge Account) with the
legal authority to oversee the compact during the compact period.

MiDA awarded contracts to government-owned enterprises in two of its compact
projects. One contract totaling $42.2 million was awarded to China Railway Wuju
Corporation (China Railway) to upgrade a portion, Lot 1, of the N1 Highway. 2 MiDA
signed the contract with China Railway on December 2008 with an expected completion
date of June 2011. The other contract, totaling $9.5 million, was awarded to Arab
Contractors, an Egyptian firm, to design and build two ferries and rehabilitate the floating
dock in Akosombo, Ghana. MiDA signed the contract with Arab Contractors on April 16,
2010, with an expected completion date of December 2011.

The objective of the review was to answer the following questions:

    •   Did the selected government-owned enterprises adhere to MCC policies and
        procedures that address (1) worker health and safety, (2) environmental
        protection, (3) quality construction, and (4) sound labor practices when
        implementing MCC compact projects?

    •   Did the Millennium Challenge Account (MCA) adhere to MCC’s Program
        Procurement Guidelines when selecting government-owned enterprises to
        implement compact projects?

Based on the OIG review, China Railway and Arab Contractors did not always adhere to
their health and safety plans, environmental management plans, or sound labor

1
  As of September 2010, contracts were awarded to government-owned enterprises that totaled
$400 million (see Table 3 in Appendix IV).
2
 N1 Highway Lot 1 is the Tetteh Quarshie and Apenkwa Interchange.

                                              2
practices when implementing MCC compact projects. In addition, it does not appear that
the firms complied with a certain part of the Ghana Labour Act as it relates to health and
safety requirements. However, the team found no instances where China Railway and
Arab Contractors did not adhere to quality construction requirements as stated in their
contracts with MiDA. In addition, the team found no instances of MiDA noncompliance
with MCC’s Program Procurement Guidelines.

China Railway and Arab Contractors did not adhere to certain requirements on compact-
funded programs in Ghana for several reasons. First, their lack of a health and safety
focus led them not to fully implement their health and safety plans. In addition,
insufficient monitoring and oversight of health and safety by the supervisory engineer for
the N1 Highway Lot 1, ICT-BANS, contributed to China Railway not fully implementing
its health and safety plans. For example, China Railway did not prepare and submit
accident reports to ICT-BANS. In addition, neither China Railway nor Arab Contractors
always provided personal protective equipment (PPE) to their employees. Further,
employees who did have PPE mentioned that they did not always wear it while working.
Such a lenient approach to health and safety could contribute to needless accidents,
resulting in worker injury, lost work time, and project delays.

China Railway also did not maintain employment records as required by its contract.
The OIG review team observed employee record-keeping deficiencies in which China
Railway did not update its records of current employees. Poor record keeping could
prevent China Railway from accurately calculating its employees’ salaries.

With regard to the second objective, the review found no instances of MiDA
noncompliance with the procurement guidelines when it contracted with China Railway
and Arab Contractors. The procurement process was the same for both projects, except
that MiDA did not require the companies that competed for the Ferry Project to
prequalify for the contract. MCC approved the bidding documents that MiDA used for
procurement. MiDA, together with the procurement agent, then advertised for bids, held
prebid meetings, obtained bids, and had an evaluation panel evaluate the bids. MiDA
then produced a bid summary report, which MCC reviewed to determine whether it
should object to MiDA's decisions.

MiDA also initiated a prequalification bid for the N1 Highway Lot 1, in which the
evaluation committee selected five firms. Two of the five firms selected did not submit
an application, leaving three firms, including China Railway. The evaluation committee
evaluated the bids first for technical compliance and then by price. Thereafter, the
committee performed a qualification assessment on the bidders’ documentation. China
Railway Wuju Corporation was ultimately selected for the contract.

MiDA invited firms to bid on the Ferry Project, with two firms submitting bids. The
evaluation panel evaluated the bids by focusing first on technical qualifications and then
on bid price. The evaluation committee then evaluated the price of the bids that met the
technical qualifications for the project.




                                            3
The report recommends that MCC require MiDA to:

1. Require China Railway Wuju to timely submit a report of all serious injuries occurring
   on the worksite to the supervisory engineer as required in its contract (page 6).

2. Implement a process that requires the supervisory engineers for the Ferry Project
   and N1 Highway to perform and document periodic health and safety reviews in
   order to ensure that all employees wear their personal protective equipment (page
   6).

3. Conduct a periodic review of China Railway Wuju’s employee record-keeping system
   to ensure that it is organized and up-to-date (page 7).

Detailed results of this review appear in the following section. Appendix I contains the
scope and methodology.            Management decisions have been reached on
Recommendations 1, 2, and 3. Final action will not be reached on the recommendations
until MCC provides additional documentation.




                                           4
REVIEW RESULTS
China Railway Wuju and
Arab Contractors
Did Not Adhere to Some
Health and Safety Requirements

The contracts between the Millennium Development Authority (MiDA) and China Railway
Wuju (China Railway), and MiDA and Arab Contractors (Sub-Clause 4.18) require each
contractor to implement the health and safety requirements established in its approved
environmental management plans. 3 The contracts also require that they adhere to the
Ghana Labour Act of 2003. In particular, the safety procedures section (Sub-Clause 4.8)
requires that the contractor notify the supervisory engineer and MiDA within 48 hours or
earlier of accidents that resulted in damage or injury. In addition, the contractors’ health
and safety plans specify that personal protective equipment (PPE) will be provided at no
cost to their employees and as required by the Ghana Labour Act.

China Railway and Arab Contractors did not adhere to and fully implement their
contracts as they related to the environmental management plans. It also appears that
the contractors did not comply with all Ghana Labour Act requirements. China Railway
did not report accidents to its supervisory engineer nor were these accidents mentioned
in its monthly reports. In addition, neither China Railway nor Arab Contractors always
provided PPE to their employees

Unreported Injuries – The Office of Inspector General (OIG) requested accident reports
from China Railway, but neither China Railway nor the supervisory engineer, ICT-BANS,
had these reports. Both China Railway and ICT-BANS stated that there was no need to
submit accident reports. Further, China Railway explained that it reported only serious
injuries to MiDA and that no such injuries had occurred. However, conversations with
employees disclosed that serious injuries had occurred on the site and that China
Railway had not always paid the injured workers’ medical expenses. The types of
injuries mentioned, such as broken legs and arms, are serious injuries that China
Railway should have reported to ICT-BANS.

Personal Protective Equipment – Approximately 10 percent of China Railway’s
employees did not wear PPE (Appendix III). These employees claimed that China
Railway did not replace their damaged PPE. China Railway stated that it will replace
worn PPE if the worker returns the originally issued PPE. Nevertheless, although the
health and safety plan requires China Railway to prohibit employees without PPE from
working on the site, China Railway allowed these employees to continue their work
without required PPE.

Further, although 92 percent of Arab Contractors’ employees interviewed had PPE, 50
percent stated that they had not received their PPE until 1 week before the OIG review

3
  China Railway’s Environmental Management Plan, Section 4.6, Health and Safety Provisions,
states that the contractor will ensure the health, safety, and welfare of its employees. Also, the
plan requires that China Railway prepare and implement a health and safety plan. Arab
Contractors’ Environmental Management Plan, Section 7, states management’s commitment to
health and safety throughout the life span of the project and identifies staffing roles, including that
of the health and safety officer, to manage health and safety issues onsite.


                                                  5
team arrived. 4 Other employees stated that Arab Contractors required them to purchase
their own PPE even though the health and safety plan requires the contractor to provide
PPE to its employees.

Lack of a health and safety focus has prevented China Railway and Arab Contractors
from fully complying with their health and safety plans. Insufficient monitoring and
oversight of health and safety by the supervisory engineer, ICT-BANS, contributed to
China Railway not fully implementing its health and safety plans. For example, although
72 percent of the employees stated that there have been several injuries on the site, the
supervisory engineer was not aware that any had occurred. In addition, an estimated 60
percent of China Railway’s workers stated that they did not attend health and safety
training. MiDA and government officials stated that although China Railway’s worksite
continues to have health and safety violations, these problems have decreased since
construction began on the site. MiDA ordered a work stoppage on the site in April 2010
owing to the health and safety violations committed by China Railway. In the case of
Arab Contractors, there has been more focus on health and safety after sparks from
welding near fumes from fresh paint ignited a fire that injured eight workers. As a result,
the supervisory engineer ordered a work stoppage for 2 weeks in November 2010, and
Arab Contractors switched from weekly to daily trainings and safety discussions for its
employees.

When contractors and supervisory engineers do not comply with health and safety
requirements, needless accidents can occur that could severely injure, maim, or kill an
employee. Injured employees are also unable to work which contributes to construction
delays. In the case of the accident on the Ferry Project, the worksite closed for 2 weeks
in order to assess the damages and even after it reopened three employees (two local
workers and one expatriate employee) could not immediately return to work because of
their serious injuries.   To address these issues, we are making the following
recommendations.

    Recommendation 1.           We recommend that the Millennium Challenge
    Corporation’s Vice President of Compact Operations require the Millennium
    Development Authority to require China Railway Wuju to timely submit a report of
    all serious injuries occurring on the worksite to the supervisory engineer as
    required in its contract.

    Recommendation 2.           We recommend that the Millennium Challenge
    Corporation’s Vice President of Compact Operations require the Millennium
    Development Authority to implement a process that requires the supervisory
    engineers for the Ferry Project and N1 Highway to perform and document
    periodic health and safety reviews in order to ensure that all employees wear
    their personal protective equipment.


China Railway Lacks Proper
Record Keeping of Employee Files

China Railway’s contract with MiDA states that China Railway must maintain complete
and accurate employee records at the worksite, including the name, age, gender, hours


4
OIG visited Arab Contractors’ worksite on December 13 and 14, 2010.


                                             6
worked, and wages paid for all workers. However, the OIG review team identified the
following problems with China Railway’s employment records:

   •   China Railway did not maintain records to calculate employee payroll.
   •   China Railway did not maintain and update its current employee records.

Although the contract required China Railway to maintain an employee record-keeping
system, China Railway did not have an organized system to maintain its employee
records and therefore did not comply with the requirements of its contract. Its current
employee records also included employees who no longer worked for the company.

The lack of an organized employee record-keeping system could result in improper
payments. If it is unable to reconcile its employee records and payroll, China Railway
may inaccurately calculate its employees’ salaries, including overtime. To illustrate, an
estimated 42 percent of China Railway’s workers stated that they did not receive
overtime pay, but owing to the lack of payroll records, OIG could not confirm the
workers’ statements. Inaccurate salary payments could lead to worker discontent and
an administrative work stoppage, similar to an event that occurred in May 2010 following
a dispute regarding the number of days for which workers should be paid. To address
this issue, we are making the following recommendation:

   Recommendation 3.         We recommend that the Millennium Challenge
   Corporation’s Vice President of Compact Operations require that the Millennium
   Development Authority conduct a periodic review of China Railway Wuju’s
   employee record-keeping system to ensure that it is organized and up-to-date.




                                           7
EVALUATION OF
MANAGEMENT COMMENTS
The Millennium Challenge Corporation (MCC) provided written comments on our draft
report that are included in their entirety in Appendix II of this report. In its comments,
MCC agreed with each of the three recommendations.

MCC agreed with Recommendation 1 and will direct the Millennium Development
Authority (MiDA) to ensure that China Railway Wuju reports all accidents to the
supervisory engineer, and all serious accidents to both the supervisory engineer and
MiDA. In addition, in the next update of its standard bidding documents for MCC-funded
infrastructure projects, MCC will include a condition to require that serious accidents also
be reported directly to MCC. On the basis of MCC’s actions to require improved
reporting, OIG considers that a management decision has been reached. However, final
action will not occur until MCC provides additional documentation, including updated
standard bidding documents.

MCC agreed with Recommendation 2 and has been working with China Railway Wuju
and Arab Contractors and the supervisory engineers to improve compliance with the
health and safety plans. To further advance this effort, MCC will require MiDA to ensure
that the supervisory engineers monitor the implementation of the personal protective
equipment requirement, including documenting periodic health and safety reviews by the
engineers. On the basis of MCC’s actions to improve health and safety monitoring, OIG
considers that a management decision has been reached. However, final action will not
occur until MCC provides documentation on the periodic health and safety reviews.

MCC agreed with Recommendation 3 and will work with MiDA to implement a periodic
review by either MiDA or China Railway Wuju’s supervisory engineer to monitor
compliance with employee record-keeping requirements in China Railway Wuju’s
contract with MiDA. On the basis of MCC’s actions to improve monitoring of record
keeping requirements, OIG considers that a management decision has been reached.
However, final action will not occur until MCC provides documentation on the periodic
review of compliance with record-keeping requirements.




                                             8
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General (OIG) conducted this review as a response to
Congressman Frank R. Wolf’s September 29, 2010, request to review Chinese
government-owned enterprises (GOEs) that receive contracts for Millennium Challenge
Corporation (MCC)-funded programs. To put the results in a broader context, OIG
expanded the review to other GOEs that received infrastructure contracts for MCC-
funded programs. Congressman Wolf had four specific areas of concern regarding the
contractors’ compliance with MCC policies and procedures: (1) health and safety, (2)
environmental protection, (3) quality construction, and (4) sound labor practices. He
also asked whether the procurement was open, fair, and competitive.

Although this review was not an audit, we conducted this review in accordance with
Government Auditing Standards, July 2007 Revision (GAO-07-731G) specifically
Chapter 3 and Chapter 7, Sections 7.55 and 7.72 to 7.79. We planned and performed
this review to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our review objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions.

OIG conducted its fieldwork for this review from November 15, 2010, to March 4, 2011,
at MCC’s headquarters in Washington, DC, with site visits to Ghana from December 6 to
17, 2010, and February 21 to 25, 2011. OIG selected Ghana because it had two
compact-funded GOEs that had contracts totaling $51.7 million, and both contracts were
in the implementation stage. However, because the request focused specifically on
GOEs that received MCC funds, OIG did not review private sector companies
implementing MCC projects.

Methodology
The review team met with MCC staff in Ghana and in Washington, DC. In addition, the
review team conducted a statistical sample, with a 95 percent confidence level, of
selected employees who worked for the government-owned enterprises in Ghana:
China Railway Wuju (China Railway) and Arab Contractors. To ensure a 95 percent
confidence level, 5 percent error rate, and 4 percent precision, the OIG team determined
the sample size to be 81 out of 447 China Railway local workers and all 16 of the Arab
Contractors local workers. 5

The review team also reviewed documents and assessed, through observations and
interviews, whether China Railway and Arab Contractors adhered to MCC policies and
procedures that address (1) worker health and safety, (2) environmental protection, (3)
quality construction, and (4) sound labor practices when implementing MCC compact
projects; and whether MCA adhered to MCC’s Program Procurement Guidelines when
selecting government-owned enterprises to implement compact projects.

5
 Because Arab Contractors had 16 local employees, OIG interviewed the entire population.
However, two of the local employees who worked for Arab Contractors were not present owing to
injury from the onsite accident that occurred in November 2010.


                                             9
                                                                              APPENDIX I



To answer the review’s objectives, the team—

•   Interviewed supervisory engineers responsible for overseeing the infrastructure
    projects and GOEs.

•   Interviewed local and expatriate staff working on the construction sites to learn about
    their experiences working for the GOEs.

•   Performed document reviews of worker wages records, accident and injury reports,
    and health and safety plans.

•   Engaged an engineer to review the quality of construction and ensure that
    substandard materials were not used in the MCC projects.

•   Examined weekly inspection reports submitted by an independent consultant that
    provided an analysis of the materials that the GOEs must use as specified in their
    contracts.

•   Conducted a statistical sample to select a percentage of workers employed at the
    construction companies and asked similar questions of each employee. The sample
    size varied by the number of staff employed at each GOE.

•   Reviewed documents supporting the procurement process.




                                            10
                                                                                         APPENDIX II



MANAGEMENT COMMENTS
                                                                                   January 12, 2011

Mr. Alvin Brown
Assistant Inspector General
For the Millennium Challenge Corporation
1401 H Street NW, Suite 770
Washington, DC 20005

DATE:            May 6, 2011 
 
To:              Mr. Alvin Brown, Assistant Inspector General 
                 Millennium Challenge Corporation 
 
From:            Mr. Patrick Fine, Vice President  
                 Department of Compact Operations 
                 Millennium Challenge Corporation 
 
 
The Millennium Challenge Corporation (MCC) appreciates the opportunity to respond to the 
Office  of  Inspector  General’s  (OIG)  draft  report  entitled  “Review  of  Millennium  Challenge 
Corporation‐Funded Contracts with Government‐Owned Enterprises in Ghana” (Report No. 
M‐000‐11‐00X‐S).    MCC’s  specific  responses  to  the  three  recommendations  in  the  draft 
report  are  detailed  below.    In  addition  to  providing  a  response  to  the  audit 
recommendations, this serves as MCC’s management decision. 
 
Recommendation 1. We recommend that the Millennium Challenge Corporation's Vice 
President of Compact Operations require the Millennium Development Authority to 
require China Railway Wuju to timely submit a report of all serious injuries occurring 
on the worksite to the supervisory engineer as required in its contract.  
 
MCC Response:             MCC agrees with the recommendation. 
 
MCC  is  committed  to  the  monitoring  and  oversight  of  the  health  and  safety  of  workers 
under  MCC  funded  contracts.    The  contract  with  China  Railway  Wuju  requires  that  the 
contractor report all accidents to the supervisory engineer, and all serious accidents to both 
the  supervisory  engineer  and  the  Millennium  Development  Authority  (MiDA).    MCC  will 
direct MiDA to ensure that the contractor and supervisory engineer fulfill their respective 
obligations to report and oversee that accidents are reported under the MCC funded Lot 1 
works  contract  of  the  N1  Activity.    In  addition,  in  the  next  update  of  its  standard  bidding 
documents  for  MCC  funded  works  projects,  MCC  will  include  a  condition  to  require  that 
serious accidents also be reported directly to MCC.   
 
Recommendation 2. We recommend that the Millennium Challenge Corporation's Vice 
President of Compact Operations require the Millennium Development Authority to 


                                                    11
                                                                                      APPENDIX II


implement a process that requires the supervisory engineers for the Ferry Project and 
N1 Highway to perform and document periodic health and safety reviews in order to 
ensure that all employees wear their personal protective equipment.  
 
MCC Response:             MCC agrees with the recommendation. 
 
MCC agrees that wearing personal protective equipment (PPE) is an integral component of 
protecting  the  health  and  safety  of  workers  under  MCC  funded  contracts.    The  health  and 
safety  plans  under  the  Ferry  Activity  and  N1  Activity  contracts  require  that  all  employees 
wear  (PPE)  when  working  on  site.    MCC  also  requires  that  contractors  adopt  a  process  to 
ensure  compliance  with  its  health  and  safety  plans.    MCC  has  been  working  with  the 
contractors  and  engineers  under  the  contracts  for  the  Ferry  Project  and  N1  Highway  to 
improve  compliance  with  the  applicable  health  and  safety  plans.    To  further  advance  this 
effort,  MCC  will  require  that  MiDA  ensures  that  the  supervisory  engineers  under  both 
contracts  monitor  the  implementation  of  the  PPE  requirement,  including  documenting 
periodic health and safety reviews by the engineers. 
 
Recommendation 3. We recommend that the Millennium Challenge Corporation's Vice 
President of Compact Operations require that the Millennium Development Authority 
conduct a periodic review of China Railway Wuju's employee record­keeping system to 
ensure that it is organized and up­to­date.  
 
MCC Response:             MCC agrees with the recommendation. 
 
MCC  will  work  with  MiDA  to  implement  a  periodic  review  by  either  MiDA  or  the 
supervisory  engineer  of  China  Railway  Wuju’s  employee  record‐keeping  to  monitor  the 
contractor’s  compliance  with  the  employee  record  keeping  requirements  of  its  contract 
with MiDA.  MCC agrees that compliance with those terms support contract implementation, 
and protects against fraud and non‐compliance with local labor laws. 
 
The actions specified above constitute management decision for all three of the above 
recommendations.  If you have any questions, please contact Pat McDonald, MCC 
Compliance Officer, at 202‐521‐7260.




                                                  12
                                                                                APPENDIX III



                              Table 1: Summary of Responses of
                       China Railway Wuju Corporation Local Employees
    Sample Size = 81
                                                                 Number of
                                                                 Employees
                                                                    Who              Population
                         Questions                               Responded           Percentage
    Number of employees who work overtime                             78                 96%
    Number of employees who do not work overtime                       1                  N/A
    Number of employees who are not sure if they work
    overtime                                                           2                  N/A
    Number of employees who received overtime pay                     38                 38%
    Number of employees who did not receive overtime
    pay                                                               41                 42%
    Number of employees who were not sure if they were
    paid for overtime                                                  2                  N/A
    Number of employees with medical expenses paid by
    the employer                                                       6                  9%
    Number of employees whose medical expenses were
    not paid by the employer                                          15                 52%

    Number of employees for which this does not apply                 60                  N/A

    Number of employees who wear safety gear                          67                 75%6

    Number of employees who do not wear safety gear                   14                 10% 6

    Number of employees who wear safety gear every day                67                 75%
    Number of employees who do not wear safety gear
    every day                                                         14                 10%
    Number of employees who attended health and safety
    training                                                          25                 22%
    Number of employees who did not attend health and
    safety training                                                   56                 60%

    Number of employees who did not have accidents                    57                 61%

    Number of employees who have had accidents                        24                 20%

    Number of employees aware of accidents on the site 7              65                 72%




6
 Because the results projected are of the entire population, the team calculated a variation
percentage or a measure of change for the results. Without a variation calculation, 83 percent of
the employees the review team interviewed wore personal protective equipment (PPE) and 17
percent did not wear PPE.
7
  Some workers reported the same accidents.


                                               13
                                                                  APPENDIX III



        Table 2: Summary of Responses of Arab Contractors Local Employees
    Population Size = 14
                                                     Number of
                                                     Employees
                                                        Who
                         Questions                   Responded      Results 8
    Number of employees who work overtime                  14         100%
    Number of employees who received all overtime pay      5           36%
    Number of employees who may not have received
    overtime pay                                           9           64%
    Number of employees with medical expenses paid by
    the employer                                           6          100%
    Number of employees whose medical expenses were
    not paid by the employer                               0           0%

    Number of employees who wear safety gear               13          93%

    Number of employees who do not wear safety gear        1           7%

    Number of employees who wear safety gear every day     13          93%
    Number of employees who do not wear safety gear
    every day                                              1           7%
    Number of employees who attended health and safety
    training                                               14         100%
    Number of employees who did not attend health and
    safety training                                        0           0%

    Number of employees who did not have accidents         7           50%

    Number of employees who had accidents                  7           50%
    Number of employees who received their safety gear 1
    week before the review team arrived                    7           50%
    Number of employees who did not indicate that they
    received their safety gear 1 week before the review
    team arrived                                           7           50%

    Number of employees aware of accidents on the site 9   14         100%




8
The OIG team met with the entire population on the site.
9
Some workers reported the same accidents.


                                              14
                                                                                APPENDIX IV


     Table 3: Government-Owned Enterprises Awarded MCC-Funded Contracts

   MCA                                                     Nationality of       Value of Contract
 Country 10                Company Name                      Company                 Award
Benin         GTZ                                         Germany              $ 11,969,525
Burkina
Faso          GTZ                                         Germany              $ 9,628,943
Georgia       Oil & Gas Construction Trust                Azerbaijan           $ 6,345,230
Georgia       Khazardenizneftgastikinti Trust             Azerbaijan           $ 8,358,967
Georgia       Khazardenizneftgastikinti Trust             Azerbaijan           $ 4,679,535
Georgia       Oil & Gas Construction Trust                Azerbaijan           $ 2,806,440
Ghana         China Railway Wuju Corporation              China                $ 42,168,601
              Arab Contractors, Osman Ahmed Osman
Ghana         & Co                                      Egypt                  $ 9,484,800
Madagascar    GTZ                                       Germany                $ 3,415,396
Mali          SinoHydro                                 China                  $ 71,619,477
Mali          SinoHydro                                 China                  $ 46,328,142
Namibia       GTZ                                       Germany                $ 7,826,423
Namibia       China Jiangsu International Ltd           China                  $ 4,587,734
Tanzania      SinoHydro                                 China                  $ 53,131,189
Tanzania      SinoHydro                                 China                  $ 59,845,418
Tanzania      China New Era                             China                  $ 57,050,577
Total                                                                          $ 399,246,397
Source: Millennium Challenge Corporation. Nonaudited data.




10
  OIG selected Millennium Challenge Account (MCA) countries in which Chinese government-
owned enterprises were implementing Millennium Challenge Corporation infrastructure projects
(Ghana, Mali, Namibia, and Tanzania). OIG also included any non-Chinese firms implementing
infrastructure projects in these countries (Arab Contractors, Egypt). For MCA countries without a
Chinese government-owned enterprise presence, OIG did not review the non-Chinese firms.


                                               15
U.S. Agency for International Development
        Office of Inspector General
For the Millennium Challenge Corporation
       1401 H Street, NW, Suite 770
          Washington, DC 20005
            Tel: (202) 216-6960
            Fax: (202) 216-6984
            www.usaid.gov/oig
